APPA
la

THE SUPREME COURT OF WASHINGTON
SUSAN CHEN, et al
Petitioner,
vs.

No. 98368-2
ORDER
Court of Appeals

KATE HALAMAY et No. 76929-4-1
al.
(Consolidated with No.
78829-9-1)
Respondents
Department II of the Court, composed of Chief
Justice Stephen and Justices Madsen, Gonzalez, Yu
and Whitener (Justice Madsen recused and Justice
Owens sat for Justice Madsen), considered at its
November 3, 2020, Motion Calendar whether review
should be granted pursuant to RAP 13.4 (b) and
unanimously agreed that the following order be
entered.
IT IS ORDERED:
That the petition for review and the “Motion for
Permission for Licensed Lawyer, Mr. James
Daugherty to File Briefs on Behalf of Minor, J.L.” are
both denied. The Clerk’s motion to strike the reply to
the answer to the petition for review is granted.
DATED at Olympia, Washington, this 4th day of
November, 2020.
For the Court,
Stephen. J
CHIEF JUSTICE

APP A
2a

THE SUPREME COURT OF WASHINGTON

SUSAN CHEN, et al
Petitioner,
vs.

No. 98503-1
ORDER
Court of Appeals

KATE HALAMAY et No. 76929-4-1
al.
(Consolidated with No.
78829-9-1)
Respondents
Department II of the Court, composed of Chief
Justice Stephens and Justice Madsen, Gonzalez, Yu
and Whitener (Justice Madsen recused and Justice
Johnson sat for Justice Madsen), considered this
matter at its November 3, 2020, Motion Calendar
and unanimously agreed that the following order be
entered.
IT IS ORDERED:
That both motions for discretionary review are
denied.
DATED at Olympia, Washington this 4th day of
November, 2020.
For the Court,
Stephen, J
CHIEF JUSTICE

APP. B
3a
IN THE COURT OF APPEALS OF THE
STATE OF WASHINGTON
SUSAN CHEN, et
al
Plaintiffs,

No. 76929-4-1
(Consolidated with No.
78829-9-1)

ONE
DIVISION
UNPUBLISHED
KATE HALAMAY OPINION
et al.
FILED February 10,
Defendants 2020:
vs.

LEACH, J. — Pro se litigants Susan
Chen and Naixiang Lian, as parents and
guardians of J.L. and L.L1 (collectively Chen),
appeal the summary judgment dismissal of
their lawsuit against Dr. Kate Halamay and
Allegro Pediatrics and the subsequent denials
of their motion for reconsideration and motion
to vacate. Chen claims that questions of fact
exist about whether Dr. Halamay acted
negligently or in bad faith by reporting Chen
to Child Protective Services (CPS) for
suspected child abuse and that numerous
procedural irregularities justify reversal.
Because Chen fails to establish error, we
affirm.1

1 We grant Chen’s motion to use initials to refer to
their minor children

APP. B
4a
FACTS
In August 2012, Chen brought her twoyear-old son, J.L., to Allegro Pediatrics,
expressing concerns that he might have
autism. Staff members provided referrals for
speech therapy, a hearing assessment, and
evaluations at the Seattle Children’s Hospital
autism clinic and the Kindering Center. In
October 2012, Allegro staff attempted to
follow up with J.L.’s parents to check the
status of his progress, as it did not appear that
J.L. had been seen at the autism clinic or at
Kindering. But they were unable to reach the
family.
On November 15, 2012, a physical
therapist at Seattle Children’s Hospital
assessed J.L. as having some characteristics
of a child on the autism spectrum. The
therapist recommended additional therapy
and follow-up with the Kindering Center and
faxed her treatment notes to Allegro. J.L.’s
family subsequently moved to Oregon for
several
months
before
returning
to
Washington. While in Oregon, they took J.L.
to Dr. John Green.
On August 31, 2013, Chen again brought
J.L. to Allegro, where he was seen for the first
time by Dr. Halamay. Shortly before this visit,
laboratory tests ordered by Dr. Green and
performed at Seattle Children’s Hospital
indicated abnormal kidney function. Chen
reported that J.L. was exhausted, urinating

APP. B
5a
more than usual, and was interested only in
eating meat. After consulting with a
nephrology fellow, Dr. Halamay provided
Chen with an urgent referral order to Seattle
Children’s Hospital nephrology clinic. On
September 5, 2013, Chen took J.L. to the
nephrology clinic. The doctor indicated that
J.L.’s lab results appeared to be improving
and that the prior abnormal results may have
been obtained at a time that J.L. was
dehydrated given his history of diarrhea and
inability to access fluids.” The clinic
recommended repeat lab tests in three weeks,
with follow-up at the nephrology clinic if
needed.
Chen brought J.L. for a second visit with
Dr. Halamay on September 16, 2013. Chen
stated that J.L. was very gassy, sometimes
has a “stiff’ stomach, and cries a lot. Although
J.L.’s gastroenterologist had recommended
constipation medication and stool studies,
Chen did not think J.L. was constipated and
did not have the studies done. Dr. Halamay
ordered lab tests, instructed Chen to refrain
from restricting J.L from fluids, and provided
a referral to Seattle Children’s Hospital for
further neurodevelopmental evaluation.
On September 19, 2013, J.L.’s speech
therapist, Jennifer Dierenfeld, contacted Dr.
Halamay to seek more information about the
family. Dierenfeld expressed concern that J.L.
has “extreme sensory dysregulation” and cries
inconsolably” during sessions. She stated that

APP. B
6a
Chen “becomes extremely frustrated” when
J.L. cries and “even threw an object during
one of the sessions.” Dierenfeld further stated
that another therapist observed Chen “raise
her hand toward [J.L.] but did not actually hit
him.” Given this information, Dr. Halamay
planned to recommend to Chen that they
enter social and behavioral therapy and
further evaluate J.L.’s sensory issues.
On September 23, 2013, Dr. Halamay
called Chen to discuss J.L.’s lab results and
her recommendations. Chen was “extremely
concerned” about J.L.’s thyroid lab values and
requested an urgent referral to Dr. Kietter, a
pediatric endocrinologist, which Dr. Halamay
provided. Dr. Halamay also discussed
Dierenfeld’s concerns about the need for
sensory and behavioral therapy, but Chen
declined. Dr. Halamay asked Chen to bring
J.L for a follow-up visit in the next one to two
weeks.
Three days later, Dr. Halamay spoke with
a gastroenterology physician’s assistant at
Seattle Children’s Hospital who opined that
J.L. should be further evaluated for
abdominal distension and gas issues. Because
Chen said she did not want J.L. to be seen by
Seattle Children’s Hospital, Dr. Halamay
referred J.L. to Swedish Medical Center and
asked Chen to make a follow-up appointment
for J.L. at Allegro within the next week.

APP. B
7a
At J.L.’s third visit with Dr. Halamay, on
October 7, 2013, Chen reported that J.L.
continued to have abdominal pain and gas
which had by then been present for six weeks.
Dr.
Halamay’s
Chen
declined
recommendations for J.L. to participate in
development or behavioral therapies or to be
seen by the Seattle Children’s Hospital
gastroenterology clinic. Dr. Halamay again
recommended that Chen take J.L. to Swedish
Medical Center as an alternative, but Chen
said she preferred to take J.L. to Dr. Arthur
Krigsman, a pediatric gastroenterologist in
Texas. Chen asked Dr. Halamay to order a
“page-long list of tests” that had allegedly
been requested by Dr. Krigsman, some of
which Dr. Halamay had never heard of. Given
her unfamiliarity with Dr. Krigsman and the
tests, Dr. Halamay declined. She offered to
order an X-ray to check J.L.’s stool burden, but
Chen declined.
On October 19, 2013, J.L. saw Dr. Roberta
Winch, another pediatrician at Allegro. Chen
reported that J.L. was tired, sweaty, and had
swelling in his knees and feet. Dr. Winch
examined J.L. She determined that he had
abdominal pain and distension requiring
immediate evaluation at the Seattle Children’s
Hospital
emergency
department.
After
“significant persuasion,” Chen agreed to take J.L.
there immediately. However, Chen and J.L. did
not show.

APP. B
8a
The following day, an Allegro nurse called
Chen to check on J.L. Chen stated that she did
not take J.L. to the emergency department
because her other child was sick but agreed to
schedule a follow-up appointment for J.L. if
necessary. That afternoon, Chen took J.L. to
the Seattle Children’s Bellevue urgent care
clinic. There, providers recommended that he
be seen at the Seattle Children’s Hospital
emergency department. Chen became upset
and left the clinic with J.L. against medical
advice.
Later that evening, Chen took J.L. to the
Seattle Children’s Hospital emergency
department. There, providers noted that J.L.
seemed irritable, tired, and limp, with a
distended abdomen and critically abnormal
lab results. After further testing and
consultation, providers allowed J.L. to return
home on the condition that Chen promptly
J.L.’s
nephrology,
up
on
follow
and
endocrinology
gastroenterology,
treatment orders.
On October 22, 2013, a Seattle Children’s
Hospital nurse contacted Allegro to express
concern that Chen would fail to follow up with
J.L.’s treatment plan. The next day, Dr. Hal
Quinn of Mercer Island Pediatrics called Dr.
Halamay to express his concerns about the
family. He informed her that Chen had taken
J.L. to see him several times during the time
Chen was also bringing J.L. to see Dr.
Halamay. And Chen had also asked him to

APP. B
9a
order long lists of tests. Dr. Quinn felt that
J.L. was very sick and expressed concern that
J.L was not receiving appropriate medical
attention despite seeing numerous doctors.
Dr. Quinn stated that one of his partners
recently saw J.L. and recommended that he be
seen at the emergency department, but Chen
refused. Dr. Quinn discussed the situation
with a gastroenterologist, who expressed
great concern and wanted to see J.L. Dr.
Quinn also spoke with Dr. Metz of the Seattle
Children’s Suspected Child Abuse and Neglect
(SCAN) team, who recommended that J.L. be
admitted to the hospital. Dr. Halamay later
contacted Dr. Metz, who reiterated that J.L.
should be admitted to the hospital to
coordinate his care, provide social support for
the family, and to determine whether SCAN
team involvement would be necessary.
Chen took J.L. to see Dr. Halamay for the
fourth and final time on October 23, 2013. J.L.
was tired, with a distended abdomen and
abnormal lab values. Chen told Dr. Halamay
she did not want to take J.L. to Seattle
Children’s Hospital because she has ‘no
confidence” in them and “{t]hey have not done
anything for him.” Dr. Halamay told Chen she
felt admission was medically necessary, but
Chen said she would find her own specialists.
Dr. Halamay told Chen that if she refused to
bring J.L. to Seattle Children’s Hospital, she
would need to contact CPS to ensure that J.L.
received necessary medical attention. Chen
left with J.L.

APP. B
10a

Dr. Halamay concluded that J.L. had
significant and potentially life threatening
renal, abdominal, liver, weight loss, failure to
thrive, and gastrointestinal issues, all without
a clear etiology. She further concluded there
was a reasonable suspicion that J.L. was a
victim of medical neglect, that J.L.’s parents
were not following up on medically necessary
care, and that the gravity of J.L.’s condition
prevented any flexibility delaying diagnostic
studies and follow-up examinations. Dr.
Halamay therefore reported concerns of
medical neglect to CPS on October 23, 2013.
Later that day, a CPS social worker picked
up J.L and Chen and transported them to
Seattle Children’s Hospital. A clinical exam
showed gross malnutrition and muscle
wasting suspected to result from medical
neglect. J.L. was removed from Chen’s
custody, and the Department of Social and
Health Services (DSHS) initiated dependency
proceedings.2
After an investigation of Dr. Halamay’s report,
the Redmond Police Department determined
probable cause existed to charge Chen with
criminal mistreatment in the second degree. The
King County Prosecuting Attorney filed a criminal
information against Chen on January 31, 2014.
However, in September 2014, DSHS asked the
2 DSHS also initiated dependency proceedings
against L.L. but returned him to his parents’
custody after the hearing.

APP. B
11a
court to dismiss the dependency petition based on
its finding that Chen did not refuse to admit J.L.
to the hospital against medical advice on October
20, 2013. The court dismissed J.L.’s dependency
action, and J.L. was returned to his parent’s care.
The State also dropped the criminal charge
against Susan “due to evidence discovered after
the time of filing.”
On October 24, 2016, Chen filed a lawsuit
pro se, asserting claims of medical negligence
against Dr. Halamay and Allegro Pediatrics
based on her decision to refer Chen to CPS.3
Chen alleged that on October 23, 2013, Dr.
Halamay
misdiagnosed
J.L.’s
medical
condition, failed to contact J.L.’s main
treating physicians, failed to review his full
medical records, and failed to provide accurate
information to CPS, resulting in J.L.’s
wrongful removal from the home and causing
emotional and mental pain and suffering to all
four family members and developmental delay
and brain damage to J.L.
On December 8, 2016, Dr. Halamay and
Allegro moved for summary judgment,
asserting immunity from liability under
Washington’s child abuse reporting statute.4
To support the motion, Dr. Halamay and
Allegro produced Dr. Halamay’s declaration,
redacted excerpts from J.L.’s medical records,
and a redacted copy of the Redmond Police
3 Chen’s claims against Allegro were based on a
respondent superior theory of liability.
4 Ch. 26.44 RCW

APP. B
12a
Department incident report regarding their
investigation following the CPS report. The
court scheduled the summary judgment
hearing for January 6, 2017. After Chen
retained counsel, the defendants agreed to
reschedule the hearing for February 24, 2017.
Then counsel for Chen withdrew. On
February 13, 2017, Chen asked for an eightmonth continuance of the
summary
judgment hearing, which the defendants
opposed. At the hearing, Chen appeared with
Twyla Carter, her former attorney from her
criminal matter. Carter told the court that she
was not representing Chen but was appearing
as a witness to explain that the case was
“complicated” and to assert that she needed
time to help Chen find an attorney. Although
Chen had requested a Mandarin interpreter
for the hearing, Carter informed the court that
Chen wanted a Cantonese interpreter. The
defendants agreed to a short continuance to
obtain an interpreter. The trial court agreed
to appoint an interpreter, granted a threemonth continuance, and rescheduled the
hearing for May 12, 2017.
On April 13, 2017, Dr. Halamay and
Allegro filed a renewed motion for summary
judgment. Chen failed to file a timely
response. On May 10, 2017, Chen filed a notice
of unavailability due to a medical problem and
requested a continuance of at least two weeks.
The court denied Chen’s request and stated
that it would rule on defendants’ motion
without oral argument. On May 11, 2017, the

APP. B
13a
scheduled date for the summary judgment
hearing, Chen e-mailed the court requesting
appointment of counsel. After considering the
materials submitted by both parties,
including Chen’s most recent e-mail, the court
granted summary judgment in favor of the
defendants and dismissed Chen’s claims with
prejudice. In its order, the court noted as
follows:
The court excused Ms. Chen from
appearing at the summary judgment
hearing on May 11, 2017 pursuant to her
notice of unavailability. The summary
judgment had already been continued once
before at her request. The court entered
this order on summary judgment based
upon he written filings of the parties.
Chen filed a pro se motion for
reconsideration. In support, she attached
three unauthenticated e-mails which were
purportedly authored by two of J.L.’s
providers and a copy of an e-mail Chen
previously sent to the court. The trial court
denied Chen’s motion. Chen timely filed a
notice of appeal seeking review of the orders
granting summary judgment and denying
reconsideration.
Chen later asked for appointment of
counsel and a guardian ad litem for her
appeal. On February 7, 2018, the Washington
Supreme Court denied Chen’s request for
expenditure of public funds. Three weeks
later, the trial court appointed a guardian ad

APP. B
14a
litem for J.L. and L.L. for the limited purpose
of “explaining] . . . the current status of the
proceedings and what options the minors have
at this point.” The guardian ad litem, noting
that Chen wanted to file a CR 60 motion to
vacate, indicated that it would be in the
children’s best interest to appoint counsel to
represent them in that matter.
On May 10, 2018, Chen filed a pro se CR
60 motion to vacate the trial court’s orders
granting summary judgment and denying
reconsideration. She also filed a supplemental
brief seeking appointment of counsel. The
court granted Chen’s request for appointed
counsel for the limited purpose of drafting
J.L.’s reply to the defendants’ response and
appearing at the show cause hearing to argue
on behalf of J.L. After a hearing, the trial
court judge denied Chen’s motion to vacate.
Chen filed a pro se motion to set aside the
judgment or, in the alternative, to reconsider
the denial of her motion to vacate, which the
court denied. Chen timely appealed these
orders, and this court consolidated Chen’s two
appeals.
STANDARDS OF REVIEW
We review a summary judgment order
de novo, engaging in the same inquiry as the
trial court. 5 We consider all facts and

5 Lvbbert v. Grant County. 141 Wn.2d 29, 34, 1
P.3d 1124 (2000).

APP. B
15a
reasonable inferences in the light most
favorable to the nonmoving party and affirm
summary judgment only when the evidence
presented demonstrates no genuine issue of
material fact and that the moving party is
entitled to judgment as a matter of law.6 “A
material fact is one upon which the outcome of
the litigation depends in whole or in part.”7
The application of this standard uses a
burden shifting scheme. A party may meet
this burden in one of two ways: it may “‘set[}
out its own version of the facts or. . . alleg[e]
that the nonmoving party failed to present
sufficient evidence to support its case.’”8 If the
defendant requests summary judgement and
alleges an absence of material facts
supporting the plaintiffs case, then the
burden shifts to the plaintiff to present a
prima facie case for the essential elements of
its claim.9

6 Wilson v. Steinbach, 98 Wn.2d 434, 437, 656
P.2d 1030 (1982).
7 Atherton Condo. Apt.-Owners Ass’n Bd. of Dirs.
v. Blume Dev. Co.. 115 Wn.2d 506, 516, 799 P.2d
250 (1990).
8 Indoor BillboardAVash., Inc, v. Integra Telecom
of Wash.. Inc.. 162 Wn.2d 59, 70, 170 P.3d 10
(2007) (quoting Pac. Nw. Shooting Park Ass’n v.
City of Seguim, 158 Wn.2d 342, 350, 144 P.3d 276
(2006)).
9 Young v. Key Pharm.. 112 Wn.2d 216, 225, 770
P.2d 182 (1989).

APP. B
16a
We review a trial court’s denial of a
motion for reconsideration, motion for a
continuance, and denial of a CR 60 motion to
vacate a judgment for an abuse of discretion.10
To determine that the trial court abused its
discretion, we must find that the “exercise of
discretion was manifestly unreasonable,
based on untenable grounds, or based on
untenable reasons.” 11
ANALYSIS
A pro se litigant is bound by the same rules
of procedure and substantive law as a licensed
attorney.12 With this in mind, we proceed with
an analysis of the issues presented in this
case.
Summary Judgment
Chen argues that the trial court should not
have dismissed her claims because the
defendants failed to show the absence of a
10 Rivers v. Wash. State Conf. of Mason
Contractors. 145 Wn.2d 674, 685, 41 P.3d 1175
(2002) Turner v. Kohler, 54 Wn. App. 688, 693, 775
P.2d 474 (1989); Mitchell v. Wash. State Inst, of
Pub. Policy, 153 Wn. App. 803, 821, 225 P.3d 280
(2009) (motion to vacate).
11 Moreman v. Butcher. 126 Wn.2d 36, 40, 891
P.2d 725 (1995).
12 In re Marriage of Olson. 69 Wn. App. 621, 626,
850 P.2d 527 (1993); Westberg v. All-Purpose
Structures, Inc., 86 Wn. App. 405, 411, 936 P.2d
1175 (1997).

APP. B
17a
material issue of fact as to whether Dr.
Halamay’s CPS report met the standard of
care and the requirement of good faith
reporting. We disagree.
“any
RCW
26.44.030(l)(a)
requires
practitioner” to report to “the proper law
enforcement agency or to the department”
whenever they have “reasonable cause to
believe that a child has suffered abuse or
neglect.” RCW 26.44.060(l)(a) provides in
part,
[A]ny person participating in good faith in
the making of a report pursuant to this
chapter or testifying as to alleged child abuse
or neglect in a judicial proceeding shall in so
doing be immune from any liability arising
out of such reporting or testifying under any
law of this state or its political subdivisions.
The reporter has the burden of proving the
report was made in good faith.13 Here, Dr.
Halamay made a prima facie showing of good
faith through her declaration and supporting
documents:
Based upon my experience, training,
education and my review of the medical record
for JL, along with my care and treatment of
him on multiple visits, along with the
information I was provided regarding JL’s

13 Yuille v. State. Ill Wn. App. 527, 533, 45 P.3d
1107 (2002).

APP. B
18a
condition and the concerns that other
healthcare providers had of JL’s situation and
concern for medical neglect, and given the
gravity of JL’s condition and the risks that
JL’s parents would continue to fail or delay in
the obtaining of essential diagnostic studies
and/or medical evaluations in the face of a lifethreatening condition, it is my opinion that
the reporting of suspected medical neglect to
CPS was reasonably prudent and required by
the Washington child abuse reporting
statutes.

Although Chen asserted that she had
“tons of evidence supporting the merits of the
case,” and despite receiving a nearly threemonth continuance, she did not engage in
discovery and did not file a substantive
response to the defendants’ motion.14 Chen’s
allegations and conclusory statements of fact
unsupported by evidence are not sufficient to
establish a genuine issue of fact to overcome
summary judgment.15
Chen argues that Dr. Halamay acted in
bad faith by failing to consult all physicians
who provided services to J.L. before making
her report. She contends that the eventual
14A party may move for summary judgment
before discovery is complete. Perez-Crisantos v.
State Farm Fire & Cas. Co., 187 Wn.2d 669, 68586, 389 P.3d 476 (2017).
15 Baldwin v. Sisters of Providence in Wash.. Inc.,
112 Wn.2d 127, 132, 769 P.2d 298 (1989).

APP. B
19a
dismissal of the dependency and criminal
actions proves that Dr. Halamay’s CPS report
was false. “But there is no legal requirement
that information giving rise to a suspicion of
child abuse be investigated or verified before
it is reported.”16 The purpose of immunity—to
encourage those who suspect child abuse to
report it—’’would be undermined if immunity
fell with a showing that the report was
unverified or lacked investigation.”17 Because
the duty to investigate lies with the
authorities, not the individual making the
report, failure to verify or investigate does not
rule out immunity.18 The question is whether
the reporter acted “with a reasonable good
faith intent, judged in light of all the
circumstances then present.”19 The evidence
supports a reasonable inference, and no
contrary inference, that Dr. Halamay met this
standard.
Chen asserts that Dr. Halamay’s acts and
omissions constituted medical negligence.
However, ‘to defeat summary judgment in
almost all medical negligence cases, the
plaintiffs must produce competent medical
expert testimony establishing that the injury
was proximately caused by a failure to comply
16 Whaley v. State. 90 Wn. App. 658, 668, 956 P.2d
1100 (1998).
17 Yuille. Ill Wn. App. at 534.
18 See RCW 26.44.050; Whaley, 90 Wn. App. at 668.
19 Whaley. 90 Wn. App. at 669 (quoting Dunning v.
Pacerelli, 63 Wn. App. 232, 240, 818 P.2d
34(1991)).

APP. B
20a
with the applicable standard of care.”20 “The
expert testimony must establish what a
reasonable medical provider would or would
not have done under the circumstances, that
the defendant failed to act in that manner,
and that this failure caused the plaintiffs
injuries.” 21 Chen did not submit expert
testimony or any other evidence in support of
her claim.
Chen next argues that the defendants’ CR
56
summary judgment
motion
was
transformed into a CR 12(b) motion when they
submitted an amended summary judgment
motion containing a footnote alleging lack of
personal jurisdiction. She contends that this
footnote requires that we evaluate the
summary judgment motion as if it were a
motion to dismiss under CR 12(b), including
treating the allegations in her complaint as if
they were established.22 But Chen cites no
authority for the proposition that the
inclusion of a footnote referencing a potential
jurisdictional defense converts a substantively
based CR 56 motion for summary judgment
into a CR 12(b) motion to dismiss on
jurisdictional grounds. To the contrary,
motions based on the pleadings are considered
under CR 56 if “matters outside the pleadings
20 Sevbold v. Neu. 105 Wn. App. 666, 676, 19 P.3d
1068 (2001).
21 Reacian v. Newton. 7 Wn. App. 2d 781, 791, 436
P.3d 411, review denied, 193 Wn.2d 1030 (2019).
22 State v. LG Elecs., Inc.. 185 Wn. App. 394, 406,
341 P.3d 346 (2015).

APP. B
21a
are presented to and not excluded by the
court.”23 CR 12(b) does not apply.
Next, Chen argues that the trial court
should have provided her with a fair
opportunity to present her case at oral
argument. Chen relies on King County Super.
Ct. Local Civ. R. 56(c)(1), which provides that
“[t]he court shall decide all summary
judgment motions after oral argument, unless
the parties waive argument.” Noting that
‘waiver is the intentional and voluntary
relinquishment of a known right,” 24 Chen
asserts that her request for a two-week
continuance of the hearing for medical
reasons does not constitute waiver and that
the procedural irregularity requires reversal.
We disagree.
Here, the trial court ruled that “[g]iven the
fact that the matter has already been
continued once before, the Court will rule on
the defense motion based upon the materials
already filed on the merits of the underlying
motion without argument.”
The trial court may deny a motion for a
continuance when (1) the requesting party
does not have a good reason for the delay in
obtaining the evidence, (2) the requesting
party does not indicate what evidence
would be established by further discovery,
23 CR 12(b)(7); CR 12(c).
24 McLain v. Kent Sch. Dist.. No. 415. 178 Wn.
App. 366, 378, 314 P.3d 435 (2013) (internal
quotation marks omitted)

APP. B
22a
or (3) the new evidence would not raise a
genuine issue of fact.25
Given that Chen failed to submit evidence or
briefing in opposition to summary judgment
despite a three-month continuance and
Carter’s assistance, this decision was not an
abuse of discretion. More fundamentally,
procedural due process does not mandate oral
argument on a written motion. ‘Rather, oral
argument is a matter of discretion, so long as
the movant is given the opportunity to argue
in writing his or her version of the facts and
law.” 26 Chen had ample opportunity to
advance her arguments in writing. King
County Super. Ct. Local Civ. R. 56(c)(1) does
not create a due process right to oral
argument.
Chen next asserts that reversal is required
because the trial court judge did not enter
written findings of fact and conclusions of law.
But CR 52(a)(5)(B) expressly provides that
findings of fact and conclusions of law are not
necessary “[o]n decisions of motions under
rules 12 or 56 or any other motion, except as
provided in rules 41(b)(3) and 55(b)(2).” Cases
cited by Chen pertain to judgments entered in
cases where findings are required and thus
have no applicability here.
Next, Chen contends that the trial court
lacked jurisdiction to dismiss J.L. and L.L.’s
claims with prejudice because the trial court
25 Butler v. Jov. 116 Wn. App. 291, 299, 65 P.3d
671 (2003)
26 State v. Bandura. 85 Wn. App. 87, 93, 931 P.2d
174 (1997).

APP. B
23a
failed to appoint a guardian ad litem as
required by RCW 4.08.050. Chen is mistaken.
A parent may initiate a lawsuit as a guardian
on behalf of a minor child.27 RCW 4.08.050(1)
provides that a trial court must appoint a
guardian ad litem for children under 14 years
of age “upon the application of a relative or
friend of the infant.” Here, Chen and her
husband initiated this lawsuit on behalf of
themselves and as parents and natural
guardians of J.L. and L.L. They did not ask
the trial court to appoint a guardian ad litem
at any time before the court entered the order
granting summary judgment. Chen cites no
authority for the proposition that the court
was obligated on its own initiative to appoint
a guardian ad litem because she was
representing herself or because English was
not her first language.
Motion for Reconsideration of Order Granting
Summary Judgment
Chen argues that the trial court abused
its discretion in denying her motion for
reconsideration under CR 59. She contends
that the court based its decision on the
following untenable reasons: (1) the court was
not required to appoint a guardian ad litem,
(2) Dr. Halamay did not have to rebut
allegations that she failed to consult with Dr.
Green before making her report to CPS, (3) a

27 See, e.g, Taylor v. Enumclaw Sch. Dist. No. 216,
132 Wn. App. 688, 694, 133 P.3d 492 (2006).

APP. B
24a
false police report submitted by thedefendants
with their summary judgment motion, and (4)
denying reconsideration before she filed a
reply to the defendant’s answer.28
We are not persuaded that the trial
court erred in denying the motion for
reconsideration on any grounds. As previously
discussed, Dr. Halamay met her summary
judgment burden of demonstrating that her
report was made in good faith in light of the
circumstances then present. Any deficiencies
in the police investigation that followed do not
bear on her intent. The trial court did not err
in failing to appoint a guardian ad item. And
Chen cites no authority for the proposition
that a trial court must provide an opportunity
for a reply before ruling on a motion for
reconsideration. 29
Motion To Vacate
We next address the trial court’s denial of
Chen’s motion to vacate. CR 60 exists to
reasons
prevent injustices based on
extraneous to the action of the court or for
matters affecting the regularity of the
28 Although Chen did not specify which
subsections of CR 59 apply here, her arguments
appear to encompass CR 59(a)(1), irregularity of
the court proceeding; CR 59(a)(7), insufficient
evidence supporting decision; CR 59(a)(8), error
of law; and CR 59(a)(9), lack of substantial
justice.
29 See CR 59(c) (providing that “[t]he court may
permit reply affidavits”) (emphasis added).

APP. B
25a
proceedings.” 30 The rule provides that a “court
may relieve a party. . . from a final judgment,
order, or proceeding” under specified
circumstances. One of the circumstances is
“[n]ewly discovered evidence which by due
diligence could not have been discovered in
time to move for a new trial under rule 59(b).”
31

Chen argues that the trial court failed to
properly consider an additional 135 pages of
J.L.’s medical records, which she received
from Allegro via discovery in other lawsuits.
She contends that these newly discovered
records revealed significant omissions from
records defendants submitted to the court in
support of their motion for summary
judgment, thus demonstrating that they
intentionally and willfully withheld critical
medical information.
In denying Chen’s motion to vacate, the
court ruled,
I don’t see any intentional withholding of
evidence. I don’t see. . . that the new
evidence [that] has been alleged now
couldn’t have been brought before, or
frankly, that it would have changed
anything in this case.
I also find that. . . the case itself is not
meritorious. . . . [K]nowing the statute
30 State v. Keller. 32 Wn. App. 135, 140, 647 P.2d
35 (1982).
31 CR 60(b)(3).

APP. B
26a
involving immunity, . . . this Court can
state on the record that clearly. . . the
referral was made in good faith and that
mandatory reporting to protect children.
. . . for all of those reasons, the Court is
denying the motion.
The court’s reasoning is sound. Because
Chen made no discovery requests before the
court granted summary judgment dismissal,
she cannot show that the evidence could not
have been discovered earlier by due diligence.
The defendants were under no obligation to
provide full copies of J.L.’s medical records in
support of their motion for summary
judgment. And given the purposes of the
immunity statue, the court did not err in
recognizing that the new records would not
have changed the result.
Chen also argues that the judge who ruled
on the CR 60 motion to vacate lacked
authority to hear it because King County
Super. Ct. Local Civ. R 60(e)(2) provides that
“the show-cause hearing on the motion shall
be scheduled . . . before the Respective Chief
Judge.” However, judges sitting on the
superior court in the same county have
identical authority.32 The record indicates
that the hearing was originally set before the
chief judge and that the judge who heard the
motion received the papers the day before the
hearing because she was “covering for another
officer.” No parties objected, and they agreed
to proceed. Under these circumstances, the

APP. B .
27a
judge had authority to hear and rule on the
motion.
Chen further argues that the trial court
should have allowed Lian an opportunity to
speak at the hearing. But the record shows
that Lian did not submit any independent
filings and did not ask to address the court,
directly or via his interpreter. The court was
not required to ask Lian whether he wished to
be heard.
Lastly, Chen argues that the trial court
erred in denying her motion to set aside or
reconsider her denial of the motion to vacate.
She based this motion on cumulative error
and did not raise any new claims. The court
did not abuse its discretion.
CONCLUSION
Because the trial court did not err in
granting the defendants’ motion for summary
judgment or in denying Chen’s motions for
reconsideration and motion to vacate, we
affirm.

WE CONCUR:
Leach. J

Dwyer. J

Verellen, J

Additional material
from this filing is
available in the
Clerk's Office.

